No. 19-1315
In the

Supreme Court of the United States
__________________

STATE OF NEVADA, et al.,
Petitioners,
v.
DONALD WALDEN, JR., et al.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

REPLY BRIEF FOR PETITIONERS
__________________
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
STEVE SHEVORSKI
Chief Litigation Counsel
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Petitioners
November 16, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
I.

This Court Can and Should Resolve the Issue
Presented by the Ninth Circuit’s Erroneous
Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. Nevada enjoys the right to be free from
suit absent consent. . . . . . . . . . . . . . . . . . . 3
B. The Ninth Circuit’s analysis necessarily
recognized Nevada’s immunity . . . . . . . . . 4

II.

This case is a clean vehicle to resolve the
question presented . . . . . . . . . . . . . . . . . . . . . 7

III.

Alternatively, this Court should remand
under Mckesson . . . . . . . . . . . . . . . . . . . . . . . 10

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF AUTHORITIES
Cases
Alden v. Maine,
527 U.S. 706 (1999). . . . . . . . . . . . . . . . . . 3, 4, 5, 7
Bodi v. Shingle Springs Band of Miwok Indians,
832 F.3d 1011 (9th Cir. 2016). . . . . . . . . . . . . . . . 6
Chevron, U.S.A., Inc. v. Natural Resources Defense
Council, Inc., 467 U.S. 837 (1984) . . . . . . . . . . . 9
Embury v. King,
361 F.3d 562 (9th Cir. 2004). . . . . . . . . . . . . 4, 5, 6
Franchise Tax Board of Cal. v. Hyatt,
139 S. Ct. 1485 (2019). . . . . . . . . . . . . . . . . . . . . . 3
Idaho v. Coeur d’Alene Tribe of Idaho,
521 U.S. 261 (1997). . . . . . . . . . . . . . . . . . . . . . . . 3
Lapides v. Board of Regents,
535 U.S. 613 (2002). . . . . . . . . . . . . . . 2, 4, 5, 6, 10
Mckesson v. Dow,
592 U.S. __ (Nov. 2, 2020) . . . . . . . . . 3, 10, 11, 12
Seminole Tribe of Florida v. Florida,
517 U.S. 44 (1996). . . . . . . . . . . . . . . . . . . . . 3, 4, 5
Statutes
Nev. Rev. Stat. 41.031 . . . . . . . . . . . . . . . . . . . . . . 5, 9

1
The issue decided by the Ninth Circuit
below—whether a state waives its right to be free from
suit by removing a federal claim brought under an act
of Congress that does not otherwise abrogate state
sovereign immunity—currently divides the circuit
courts and concerns a matter of tremendous
importance to the states. The Ninth Circuit’s decision
wrongfully denies Nevada its immunity from suit and
conflicts with this Court’s precedent.
Respondents do not dispute the impact of the Ninth
Circuit’s holding, the existence of a circuit split, or that
this issue is critically important to the states. Their
sole argument for denying Nevada’s petition rests on
the shaky assertion that a certified question framed by
the district court below “asks the Nevada Supreme
Court to determine the very issue which the question
presented here assumes has already been resolved” and
is thus dispositive of the question Nevada has
presented to this Court. Brief in Opposition (BIO) at 2.
The two issues are distinct, however. This Court’s
precedent establishes that Nevada, like all states,
retains its immunity from suit absent its affirmative
consent. Respondents’ suggestion that Nevada’s
immunity remains undecided is thus incorrect.
Respondents can only make this assertion, and elide
the critical distinction between the question presented
to this Court and the district court’s question, by
purposely disregarding relevant principles of sovereign
immunity outlined in this Court’s prior cases. The mere
existence of a certified question on whether Nevada has
statutorily waived its immunity from liability in state
court thus should not dissuade this Court from

2
resolving the very real and pressing question before it
regarding removal resulting in waiver of a state’s
immunity from suit for Respondents’ federal claims.
Any hint of truth to Respondents’ suggestion that
Nevada’s immunity remains undecided results from the
Ninth Circuit’s mistaken reliance on the Eleventh
Amendment as the source of Nevada’s immunity. App.
8. This error provides an additional reason for this
Court to grant review. Granting Nevada’s petition
would provide an opportunity for this Court to address
continued confusion in the lower courts about the role
of the Eleventh Amendment by reaffirming the broader
concept that the states did not forfeit their sovereignty
in toto when joining the Union. This Court should take
the opportunity to clarify these principles, squarely
presented by—and central to—this case.
The Ninth Circuit’s reliance on the Eleventh
Amendment as the basis for Nevada’s immunity
discredits its entire analysis. Despite recognizing the
inherent unfairness its waiver-by-removal rule imposes
on the states, the court grounded its decision in a
desire for judicial efficiency. That rationale collapses,
however, when confronted with the precedent of this
Court establishing that a state’s sovereign immunity is
inherent in the constitutional design of our republic.
The time has come for this Court to resolve the
important question it left open in Lapides v. Board of
Regents, 535 U.S. 613 (2002). And this case presents an
ideal vehicle to do so.
Should this Court determine that addressing the
question presented on the merits is premature, the

3
Court should follow the procedure it recently outlined
in Mckesson v. Dow, 592 U.S. __ (Nov. 2, 2020), and
remand for the lower courts to address the effect of any
decision from the Nevada Supreme Court on the
district court’s certified question.
I.

This Court Can and Should Resolve the
Issue Presented by the Ninth Circuit’s
Erroneous Decision.

The only issue presented to this Court is the one
decided by the Ninth Circuit: whether Nevada
automatically waived its immunity from suit by
removing Respondents’ claims under the Fair Labor
Standards Act (hereinafter “FLSA”) to federal court.
This Court can, and should, resolve that question here.
A. Nevada enjoys the right to be free from
suit absent consent.
This Court’s precedents squarely establish that,
with limited exceptions, the Constitution confers upon
the States the sovereign right to be free from suit in
any court—state or federal—absent consent. See, e. g.,
Franchise Tax Board of Cal. v. Hyatt, 139 S. Ct. 1485,
1493-96 (2019); see also Alden v. Maine, 527 U.S. 706
(1999). Under the doctrine of equal footing, Nevada’s
sovereignty as a state existed the moment Nevada
joined the Union. Idaho v. Coeur d’Alene Tribe of Idaho,
521 U.S. 261, 283 (1997). In the absence of affirmative
consent to suit, that immunity extends to federal
claims like Respondents’ FLSA claims, which derive
from statutes established under Congress’s Article I
powers. Alden, 527 at 757-58; see also Seminole Tribe
of Florida v. Florida, 517 U.S. 44 (1996).

4
Respondents thus can proceed on their FLSA claims
only if Nevada has, in some way, affirmatively waived
that immunity by consenting to suit. The Ninth Circuit
concluded that it has, stripping Nevada of its immunity
by holding that Nevada’s decision to remove the case to
federal court waived immunity on all federal claims,
including Respondents’ FLSA claims. App. 13-16.
Respondents’ assertion that no Court has decided
Nevada’s immunity is thus misplaced. As this Court’s
decisions establish, Nevada’s immunity springs from
the structure of the Constitution. The existence of this
immunity is inherent in the Ninth Circuit’s
determination that Nevada waived its immunity by
removing the case to federal court.
B. The Ninth Circuit’s analysis necessarily
recognized Nevada’s immunity.
Nevada’s removal of this case to federal court
provides the sole basis for the Ninth Circuit’s
conclusion that Nevada waived its immunity. App. 816. The court recognized that Nevada’s situation here
is distinct from that of the states’ in Lapides and
Embury v. King, 361 F.3d 562 (9th Cir. 2004), because
Nevada would have been able to assert an immunity
defense to the federal claims in state court based on the
rationale of Alden and Seminole Tribe. App. 11-12.
The Ninth Circuit’s opinion squarely frames the
issue presented here: “whether Nevada waived its
sovereign immunity by removing Plaintiffs’ FLSA
claims to federal court.” App. 8 (emphasis added). As
it had in the district court, Nevada argued that
(1) Nevada is immune from the FLSA claims in any
court, and (2) the Ninth Circuit should join the circuits

5
that have concluded that removal does not waive
immunity on federal claims where the state could raise
a defense of immunity in state court. Appellant’s
Opening Brief, Nevada v. Walden, No. 18-15691 (Aug.
28, 2018) (Dkt. 10) (relying on Alden, and Seminole
Tribe).
The Ninth Circuit expressly chose not to address
Respondents’ “alternate argument” that Nevada
waived immunity under state law. App. 16 n.4. Instead,
it unambiguously held that “a state that removes a case
to federal court waives its immunity from suit on all
federal claims in the case, including those federal-law
claims that Congress failed to apply to the states
through unequivocal and valid abrogation of their
Eleventh Amendment immunity.” App. 4 (emphasis
added). In reaching that conclusion, the court implicitly
recognized that this case presents the question left
unanswered by Lapides and Embury—whether
removal results in waiver even where a state would be
able to assert an immunity defense in state court. That
is the question Nevada now presents to this Court.
The Ninth Circuit began its analysis by retreading
the rationale and holding of Lapides while citing Nev.
Rev. Stat. 41.031 in support of its recognition that
“[m]any states statutorily waive their immunity from
suit on state-law claims in state court. App. 8-10
(emphasis added). Then, the court acknowledged its
extension of Lapides to “certain federal-law claims” in
Embury, where the court declined to address removal
of “federal claims that Congress failed to apply to the
States through unequivocal and valid abrogation of
their Eleventh Amendment immunity.” App. 11-12

6
(quoting Embury, 361 F.3d at 566 n.20). Thus, Lapides
and Embury both found waiver based on removal in
situations where the state had, in some way, already
consented to suit in state court—consenting under
state law or to federal causes of action where Congress
has validly abrogated state sovereign immunity. But
both opinions also left open the question whether
removal should result in waiver of immunity from suit
where a defense of sovereign immunity would remain
viable in state court because Congress failed to validly
abrogate state sovereign immunity.
The Ninth Circuit acknowledged that Lapides and
Embury did not control its decision because this case
presents the question those cases left undecided. App.
12. And prior to addressing that question, the court
identified the relevant split of authority “on whether
Lapides indicates that a State defendant’s removal to
federal court waives its Eleventh Amendment
immunity if the State has not waived its immunity to
suit in state court.” App. 12 n.3 (quoting Bodi v. Shingle
Springs Band of Miwok Indians, 832 F.3d 1011, 1019
(9th Cir. 2016) (emphasis added).
Respondents largely ignore the issue presented to
and decided by the Ninth Circuit. The opposition’s sole
reference to the Ninth Circuit’s opinion is a passing
reference in a footnote misreading Nevada’s argument
that the Ninth Circuit decided the issue in this case.
Opp. at 1 n.2. Respondents selectively focus on more
recent ongoing proceedings in the district
court—wrongly implying that Nevada had not
previously argued that it would be immune in its own
courts—while eliding the critical distinction between

7
the issue before this court (immunity from suit) and the
issue certified to the Nevada Supreme Court (immunity
from liability). Opp. at 2-3.
To the extent there is any truth to Respondents’
argument that Nevada’s immunity remains undecided,
it lies in the fact that the Ninth Circuit continues to
identify the Eleventh Amendment—not the
Constitution’s framework—as the source of Nevada’s
immunity. App. 8. Under this Court’s jurisprudence,
however, the Ninth Circuit’s understanding of the
source of state sovereign immunity is mistaken. Alden,
527 U.S. 713 (recognizing that using the phrase
“Eleventh Amendment immunity” when referring to
state sovereign immunity “is convenient shorthand but
something of a misnomer” because state sovereign
immunity is a result of the constitutional framework,
not the Eleventh Amendment). The Ninth Circuit’s
preference for judicial efficiency, upon which its
decision here relies, is inadequate to displace the
design of the Constitution. By granting review in this
case, this Court can resolve the continued confusion
about the source of state sovereignty under the
Constitution.
II.

This case is a clean vehicle to resolve the
question presented.

The certified question does not present the Nevada
Supreme Court with a binary choice that will be
dispositive on the question presented. And
Respondents are mistaken that any resolution of the
certified question will require this Court to dismiss the
petition as improvidently granted. Opp. at 3.

8
First, Respondents’ suggestion that Nevada’s
pending motion for summary judgment1 “will be
granted” if the Nevada Supreme Court concludes that
Nevada has not waived its immunity from liability
conflicts with their arguments in the district court. On
remand, opposing Nevada’s argument that it remains
immune from liability, Respondents have argued that
removal also waives immunity from liability. Plaintiffs’
Opposition to Defendant State Nevada ex rel.
Department of Corrections’ Motion for Summary
Judgment, Walden v. Nevada, No. 3:14-cv-00320-MMDWGC, at 20-21 (May 11, 2020) (ECF No. 299).
Because the Ninth Circuit has not addressed
whether removal waives immunity from liability,
Respondents remain free to argue that the district
court should deny the motion and force Nevada to
defend itself at trial, regardless of what the Nevada
Supreme Court says. If the district court agrees,
Nevada would be left unable to appeal the order
denying its motion until after the entry of final
judgment—demonstrating the inadequacy of the rule in
circuits where removal limits a state to asserting only
that it is immune from liability. Pet. at 12-13. Even
assuming the district court would ultimately rule in
Nevada’s favor on immunity from liability,

1

While Respondents initially correctly identify the motion for
summary judgment, they later appear to inadvertently refer to the
motion as a motion to dismiss. Opp. at 2-3.

9
Respondents will undoubtedly appeal, unduly
prolonging final resolution of the FLSA claims.2
Second, even if Nevada has statutorily waived
immunity from liability, this Court can still review
whether a state’s removal is a valid basis for rejecting
the state’s defense that it is immune from suit. See,
e.g., Chevron, U.S.A., Inc. v. Natural Resources Defense
Council, Inc., 467 U.S. 837, 842 (1984) (noting that this
Court reviews judgments, not opinions, to determine
whether “legal error resulted in an erroneous
judgment”). Assuming Nevada has statutorily waived
its immunity from liability in state court, that is
merely an alternative ground that may support the
Ninth Circuit’s conclusion that Nevada has consented
to suit under the FLSA.
Thus, a resolution of the certified question in
Respondents’ favor is not a bar to this Court’s review.
2

This Court should not doubt that Nevada retains its immunity
from suit on Respondents’ FLSA claims. As Nevada has
consistently argued in this case, the historical context of the
adoption and application of Nev. Rev. Stat. 41.031 do not support
the conclusion that Nevada has waived its immunity from suit for
federal causes of action that Congress creates through its Article
I powers, particularly when Nevada law creates a robust
administrative mechanism to address the relevant issues under
state law. See, e.g., Opening Brief, Nevada v. Walden, No. 1815691, at 21-27 (9th Cir., Aug. 28, 2018) (Dkt. 10). In the fifty-five
years since the adoption of Nev. Rev. Stat. 41.031, not a single
reported Nevada case has applied Nevada’s waiver of immunity to
sweep as broadly as Respondents’ position requires. Plaintiffs’
Opposition to Defendant State Nevada ex rel. Department of
Corrections’ Motion for Summary Judgment, Walden v. Nevada,
No. 3:14-cv-00320-MMD-WGC, at 10 (May 11, 2020) (ECF No.
299).

10
If this Court grants plenary review and agrees with
Respondents that removal waives immunity from suit,
the parties can proceed in the district court in due
course. However, if it agrees with Nevada that removal
should not result in waiver of immunity, this Court can
vacate and remand to let the lower courts determine
the effect, if any, of the Nevada Supreme Court’s
resolution of the certified question in the first instance.
This case is ripe for review and presents a clean
opportunity for this Court to rule on the question left
open in Lapides that has been percolating in the circuit
courts for more than 18 years.
III.

Alternatively, this Court should remand
under Mckesson.

If this Court is concerned that the district court’s
certified question creates uncertainty about a related,
but distinct, question of state law—whether Nevada
has statutorily waived its immunity from liability in
state court—this court should turn to its recent
decision in Mckesson. McKesson provides a path to
alleviating concerns that uncertainty about a novel
question of state law renders a question of federal
constitutional law “purely hypothetical”: granting the
petition, vacating the Ninth Circuit’s opinion, and
remanding for further consideration of the Nevada
Supreme Court’s ultimate disposition of the question
already certified by the federal district court. Mckesson,
592 U.S. at __, (slip op. at 4-5).
A remand in this circumstance has two distinct
advantages over denying the petition. First, if the
Nevada Supreme Court determines that Nevada has

11
not waived immunity to the FLSA claims under state
law, a remand preserves the interlocutory posture of
the case and Nevada’s interests in establishing the
important distinction between immunity from suit and
immunity from liability that is central to the relevant
split of authority. Pet. at 12-13. And then this Court
will be positioned to address any further decision form
the Ninth Circuit on the issue.
Second, if the Nevada Supreme Court determines
that Nevada has waived immunity under state law,
vacating and remanding allows the Ninth Circuit to
determine whether it can decide this case on narrower
grounds specific to Nevada. Denying Nevada’s petition,
in contrast, leaves the Ninth Circuit’s published
opinion in place, which then remains binding on other
Ninth Circuit states that have not waived their
immunity from suit under state law.
***
Respondents have otherwise waived any opposition
to the petition, and this case is ripe for review.
Alternatively, this Court should grant, vacate, and
remand for further consideration in light of Mckesson.

12
CONCLUSION
This Court should grant the petition for plenary
review or, in the alternative, vacate the Ninth Circuit’s
decision and remand for further consideration in light
of Mckesson.
Respectfully submitted,
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
STEVE SHEVORSKI
Chief Litigation Counsel
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Petitioners
November 16, 2020

